Certificate of Service

The undersigned hereby certifies that on January 25, 2021, paper copies of her
Petition for Writ of Certiorari were mailed by First Class Mail to the following
addresses in the following quantities:
An original and 10 copies to:
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
A single copy to:
Assistant Attorney General Steven C. Kilpatrick
Post Office Box 7857
Madison, Wisconsin 53707-7857
(608) 266-1792
Counsel for Defendants: Board of Regents University of Wisconsin, Thomas
Caywood, Elizabeth Throop, Michael Dalecki
All parties required to be served have been served.
I certify under penalty of perjury that the foregoing proof of service is true and
correct to the best of my knowledge.
Respectfully submitted,
Executed on: January 25, 2021
Petitioner
2689 S. River Rd.,
Galena, IL, 61036
Telephone: 608-331-0203

